<html>
<title> - WAR POWERS, UNITED STATES OPERATIONS IN LIBYA, AND RELATED LEGISLATION</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
 WAR POWERS, UNITED STATES OPERATIONS IN LIBYA, AND RELATED LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 25, 2011

                               __________

                           Serial No. 112-38

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______


                  U.S. GOVERNMENT PRINTING OFFICE
66-533                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f493849bb4978187809c919884da979b99da">[email&#160;protected]</a>  


                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Justin Amash, Member of Congress...................    11
The Honorable Thomas Rooney, Member of Congress..................    15
The Honorable Christopher Gibson, Member of Congress.............    18

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     3
The Honorable Justin Amash: Prepared statement...................    13
The Honorable Thomas Rooney: Prepared statement..................    17
The Honorable Christopher Gibson: Prepared statement.............    21

                                APPENDIX

Hearing notice...................................................    40
Hearing minutes..................................................    41


 WAR POWERS, UNITED STATES OPERATIONS IN LIBYA, AND RELATED LEGISLATION

                              ----------                              


                        WEDNESDAY, MAY 25, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:30 a.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The hearing will come to order. 
After the ranking member and I make our opening remarks, 
committee members will have the opportunity to make 2-minute 
statements before we hear from today's distinguished panelists, 
that's distinguished except for Mr. Rooney of Florida.
    And, without objection, Members, including today's 
panelists, may have up to 5 days to insert statements into the 
record, and the chair will recognize herself.
    We meet today as part of our continuing oversight of the 
United States involvement in Libya to hear from our non-
committee colleagues who have introduced legislation on war 
powers, and on authorities relating to the use of force to 
address the situation in Libya.
    The committee will continue our efforts tomorrow morning at 
the House-wide Members briefing with legal experts. That 
briefing had to be rescheduled from May 12th due to the 
avalanche of House floor votes.
    As we have reviewed before, the President commenced U.S. 
military operations inside Libya on March 19th, and notified 
Congress within 48 hours consistent with the War Powers 
Resolution. He announced operations limited in their nature, 
duration, and scope as part of an international effort ``to 
prevent a humanitarian catastrophe and address the threat posed 
to international peace and security by the crisis in Libya.''
    The administration has claimed that congressional approval 
was not constitutionally required, and that the use of force in 
Libya was constitutional because the President ``could 
reasonably determine that such use of force was in the national 
interest''--an extremely broad claim of war making power. Even 
some who regard the President's action as legal are concerned 
that the endorsement by the Arab League, the United Nations, 
and NATO seem to figure more prominently in his stated 
justifications than do clearly identified U.S. national 
security interests.
    Since the President's notification, NATO-led air strikes in 
Libya have inflicted serious damage on Ghadafi regime's war 
machine, yet lawless troops continue to demonstrate 
cohesiveness and operational superiority over rebel forces.
    Last Friday, concurrent with the 60-day deadline under the 
War Powers Resolution, the President sent a new letter to 
Congress stating that the U.S. role in Libya operations, ``has 
become more limited,'' and consists of, and I'm quoting here, 
``non-kinetic support to the NATO-led operation, air strikes in 
support of the no-fly zone, and since April 23, precision 
strikes by unmanned aerial vehicles.''
    The President also expressed support for a bipartisan 
Senate resolution introduced Monday by Senators Kerry, and 
McCain, and five others. That measure expresses the sense of 
the Senate in support of ``the limited use of military force by 
the United States in Libya as part of the NATO mission'' and 
calls on the President to submit to Congress a detailed 
description of U.S. policy objectives and plans in Libya. It is 
not a formal authorization for the use of force in Libya 
pursuant to the War Powers Resolution.
    The measures introduced by today's panelists would take a 
more Congress-centered approach to the Libya campaign.
    Mr. Rooney's resolution, House Concurrent Resolution 32, 
expresses the sense of Congress that the President should 
obtain statutory authorization for the use of force pursuant to 
the War Powers Resolution.
    The bill introduced by Mr. Amash, H.R. 1212, would cut off 
funding for the use of force in Libya until it is authorized by 
Congress.
    And Mr. Gibson's bill, H.R. 1609, would revise the text of 
the War Powers Resolution, replacing its current congressional 
procedures with a shorter provision tied more directly to 
Congress' power of the purse.
    Regardless of where one comes down on war powers issues, 
and whether the administration requires express authority to 
continue its limited engagement in Libya, we can all agree that 
the administration must address certain critical questions that 
Congress and this committee have been asking for weeks.
    What are the specific goals and strategic end game that our 
armed forces are pursuing in Libya? Are we willing to accept 
any role for Ghadafi in Libya's future? Who exactly are the 
armed rebels and the Transitional National Council? And what 
safeguards are in place to insure that any U.S. assistance does 
not fall into the hands of those working against U.S. national 
security interests.
    Two weeks ago, this committee favorably reported a 
Resolution of Inquiry seeking information from the Department 
of State. We will press for answers from the administration at 
the classified interagency briefing for members that we have 
scheduled for tomorrow afternoon.
    I want to thank our panelists for making the time to be 
here today. I look forward to our discussion, and I'm now 
pleased to yield to my good friend, the ranking member, Mr. 
Berman for his opening remarks this morning. Thank you, Howard.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Berman. Thank you very much. It's good to be your good 
friend. I don't know if Mr. Rooney still is. Thank you, Madam 
Chairman.
    The President commenced combat operations in Libya to 
prevent a humanitarian catastrophe at the hands of Ghadafi's 
forces. There was bipartisan support for this effort, and I 
believe the President prevented massive loss of life through 
the decisive use of force.
    I continue to believe the mission is relevant and 
necessary. Ghadafi must be removed in order for Libya to have a 
chance to transition to humane governance and democracy. His 
indiscriminate use of force against civilians underscores the 
importance of the U.N. resolution that provides the basis for 
the NATO action.
    For these reasons, I support the draft Senate resolution 
introduced by Senators McCain and Kerry, which expresses 
support for the limited use of force in Libya.
    I believe efforts to either terminate funding for this 
effort or force an immediate withdrawal of forces would reverse 
to disastrous effect the very meaningful progress already made 
in Libya. It's time to end the stalemate decisively, and that 
can't be stopped. That can't be done by stopping now.
    I'd like to give the President limited time to pursue this 
mission. To do otherwise would be, once again, to invite a 
horrible massacre of Libya civilians. But underlying it is a 
central legal question.
    The War Powers Resolution acknowledges the President may 
introduce forces into hostilities unilaterally for a period of 
up to 60 days. That may not be what the Constitution originally 
envisioned or consistent with a strict reading of congressional 
authority, but it is what Congress by the terms of that War 
Powers Act presumed; that, in effect, they were amplifying that 
provision of the Constitution.
    The courts, of course, have not been willing to get into 
this dispute between the Executive and the congressional powers 
in this area.
    Now that the 60 days has run, we must evaluate the 
specifics of ongoing combat operations to determine whether 
these activities still meet the War Powers Act standard of 
engagement in hostilities, thereby necessitating a formal 
authorization for the use of force. This is a threshold 
question.
    When the administration commenced operations in March, the 
President unambiguously to my way of thinking introduced forces 
into hostilities. The U.S. was directly striking targets in 
Libya, providing intelligence support, and deploying forces off 
the coast of Libya. Is this still the case?
    The President has transferred control of this operation to 
NATO, and the U.S. involvement is more limited than it was 
before.
    There is a fascinating article in today's New York Times 
that lays out some of the specific aspects we are still 
involved in. And the threshold question for us here is whether 
U.S. armed forces have slipped below that threshold of 
hostilities obviating the need for congressional action.
    A couple of days ago I thought we might have. As I read the 
New York Times article and get more information on what we're 
doing now, I'm much less sure of that conclusion.
    We can argue theory here. This is--we need to take a close 
look at exactly what the President is doing in order to 
evaluate the War Powers Resolution threshold for termination.
    For example, could one argue that periodic drone strikes do 
not constitute introducing forces into hostilities? Since the 
strikes are infrequent, there are no boots on the ground.
    Simultaneously continued and sustained targeting of a 
foreign country, regardless of the weapon system, could--might 
well meet the resolution's definition of introducing armed 
forces into hostilities.
    There are no black and white answers here, and I look 
forward to our witnesses' views on these complex questions. But 
I do want to say, I read the testimony of our three colleagues' 
legislation and their approach to this, and they are raising 
fundamental questions. But before we get too quick about 
railing about the executive branch, we have to look at 
ourselves and come to terms with what we are willing to do to 
exercise the authorities that the Constitution gave us. And we 
have the power within this institution to make that effort, to 
have an academic discussion of attacking the President, whether 
he's exceeding his Article II powers when we aren't willing to 
exercise our Article I powers is a funny approach to take.
    And with that, I yield back, and thank the chairman for 
calling this hearing.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Berman.
    Mr. Gallegly of California is recognized for 2 minutes.
    Mr. Gallegly. In the interest of time, I would yield.
    Chairman Ros-Lehtinen. Thank you. Mr. Manzullo, 
Subcommittee on Asia and the Pacific chairman is recognized for 
2 minutes.
    Mr. Manzullo. Thank you.
    My big concern is the President is currently following the 
lead of NATO, the Arab Union, the Arab League, and the U.N. to 
the exclusion of the United States Congress, believing that if 
he can get the blessings of one or more of those organizations, 
he doesn't need the imprimatur of--or any input from the 
elected representatives of this country.
    What's bothersome is boots on the ground are not the test. 
Drones in the air could wipe out a lot more than boots on the 
ground. What's particularly bothersome is the day that 
Secretary Clinton announced $20 million in non-lethal 
humanitarian aid stressing that no weapons were being given to 
the opposition, to Ghadafi. The very next day, the President 
announced that he was sending in the drones.
    This is ridiculous. Syria--more people have been killed in 
Syria than all the other Arab nations together that are 
involved in the Arab uprising this spring, and yet still with 
the sanctions against Syria, it's nothing compared to what the 
President has decided to do, unilaterally, on his own with 
regard to Libya.
    So, I commend the three of you. I'm looking for any and all 
solutions so that the United States does not get involved in 
these unilateral wars, unless absolutely necessary, and 
pursuant to the terms of the War Powers Act.
    Chairman Ros-Lehtinen. The gentleman yields back.
    Mr. Sherman is recognized for 2 minutes.
    Mr. Sherman. Thank you.
    The State Department is working hard to bring the blessings 
of democracy and the Rule of Law to every country, except ours. 
Rome was built with legislative decision making. Rome declined 
and failed under an Imperial Executive.
    We probably should authorize some action with regard to 
Libya. Although I've got a lot of questions the administration 
doesn't need to answer, because they view us as irrelevant. But 
any authorization should be limited as to time and scope so 
that we can then pass additional resolutions with further 
review.
    Any authorization should be conditioned on the Libyan 
rebels expelling from their midst those with American blood on 
their hands, those who fought us in Afghanistan and Iraq. And, 
particularly, the Libyan Islamic fighting group.
    And, finally, I would want to see any resolution require 
that this mission be funded by the assets that Ghadafi was 
stupid enough to leave in the United States, which have been 
seized by the U.S. Treasury.
    The administration takes the extremist view that the 
Executive can deploy any amount of American force anywhere, 
anytime, for any purpose, for any duration, with any effect, 
with only the most cursory discussions with a few Members of 
Congress.
    Worse than that, they won't even articulate that view, they 
won't even acknowledge the 60th day, and the day on which they 
began violating the law. But as the ranking member points out, 
the fault is also here with Congress. So many of us would like 
to evade the tough decisions. Democrats and Republicans know 
how to vote on contentious issues because they come from 
Democratic and Republican districts. But this is one that 
crosses party lines, this is one that divides every one of our 
districts, and a lot of people would just as soon duck the 
issue. That's not our job.
    We should put in every appropriations bill that the 
expenditure of funds in violation of the War Powers Act 
constitutes a theft of taxpayer money.
    I tried with a few to get congressional leadership of both 
parties to put in the CR that no money could be spent in 
violation of the War Powers Act. We got no response. It's time 
for Congress to step forward. It's time to stop treading the 
U.S. Constitution in a presumed effort to bring democracy and 
Constitutional Rule of Law to Libya. I yield back.
    Chairman Ros-Lehtinen. Thank you, Mr. Sherman.
    Judge Poe, the Subcommittee on Oversight and Investigation 
vice chair is recognized for 2 minutes.
    Mr. Poe. Thank you, Madam Chair. I appreciate other members 
being here, especially those of you who have served in our 
military.
    There's no question about it, Muammar Ghadafi is a bad guy. 
He's an outlaw. But there are a lot of rulers who are bad guys 
and outlaws. Now, is it the United States omnipotent power and 
decision making that we will trot around the world and 
eliminate who we think, more specifically who the 
administration thinks, is a bad guy, and has to go?
    Abraham Lincoln said, ``Kings have always been involved in 
impoverishing people in wars, pertaining generally, if not 
always, that the good of the people was the object.''
    Madison to Jefferson, ``The Constitution supposes what 
history of all governments demonstrates, that the executive is 
the branch of power most interested in war, and most prone to 
it.'' And accordingly, with study care vested the question of 
war with our legislature.
    Washington, ``The Constitution vests the power of declaring 
war with Congress. There is no offense expedition of importance 
can be undertaken until after they've deliberated on the 
subject, and authorized such a measure.''
    Well, we have not authorized this war. The War Powers Act; 
the administration has not complied with the War Powers Act. 
Secretary Gates has said, ``This is not in our national 
security interest that we drop bombs in Libya. Therefore, there 
is no national emergency created by an attack on the U.S., the 
territories, or our armed forces.''
    So, the Constitution doesn't authorize it, the War Powers 
Act doesn't authorize this war in the name of humanity in 
Libya, and it is the responsibility of Congress and, I agree 
with the ranking member, it is our duty as Members of Congress 
to rein this war in and control the purse strings. And I don't 
think it's appropriate for Congress to declare war after war 
has already started. We should be involved before any war takes 
place, including war in the name of humanity.
    I will yield back my time.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Chandler of Kentucky yields back. Mr. Rivera of Florida 
is recognized for 2 minutes. He's out. Ms. Ellmers of North 
Carolina is recognized for 2 minutes.
    Ms. Ellmers. Thank you, Madam Chairman.
    I just want to say that I'm very much looking forward to 
the testimony that my colleagues are offering today. Thank you 
so much for being here and for sharing this, and your service 
to our country.
    Chairman Ros-Lehtinen. Thank you. Ms. Ellmers yields back. 
Mr. Burton of Indiana is recognized for 2 minutes.
    Mr. Burton. I have the War Powers Act right here, and the 
President has not complied with it. It says, ``The President in 
every possible instance shall consult with Congress before 
introducing United States armed forces into hostilities.''
    If you read this thing, you know he violated the War Powers 
Act. And today, I was watching television with--a new 
conference with the British Prime Minister and the President, 
and the President indicated we--he's talking about Libya, he 
keeps saying, ``We are all together,'' and ``We are going to 
continue to do this. We are involved in this conflict.''
    He has received no authorization whatsoever from the 
Congress of the United States, and it's in violation of the War 
Powers Act and the Constitution.
    Why are we not in the Ivory Coast? Thousands of people have 
been killed or are being killed there. Why are we not in Syria? 
You know, you could pick all kinds of places, as Mr. Poe said, 
around the world where we could get involved if we wanted to 
for humanity purposes, humane purposes. I mean, why don't we 
just get involved everywhere?
    The President is not a king, and he shouldn't act like a 
king. The legislative branch of the Government of the United 
States should be informed and involved in any decision that 
involves military action. And we were ignored. We should not be 
ignored, and I think that we ought to pull in the purse 
strings, cut off the purse strings as quickly as possible 
legislatively, and stop this thing, and leave it up to those 
who want to fight a war over there.
    Chairman Ros-Lehtinen. Thank you, Mr. Burton.
    Ms. Schmidt of Ohio is recognized for 2 minutes.
    Ms. Schmidt. Thank you, Madam Chair.
    I'm glad that Congressman Burton pointed out the 
significance of the War Powers Act, because, Madam Chair, as we 
all know, on March 21, 2011, without consulting Congress, 
President Obama committed troops to combat operations in Libya 
as part of a coalition of nations seeking to prevent a 
humanitarian crisis.
    Today, sitting next to the Prime Minister of England, he 
continued to say that we are going to be involved in this 
conflict. Madam Chair, you know as well as I do, as well as 
this great nation, that it has been 60 days since the President 
has committed military action in Libya, and has yet to ask for 
our permission.
    My concern is three-fold. First, the security and the 
safety of our troops. Second, the security and safety of our 
nation. And, third, the economic cost of this conflict.
    As Congressman Poe so eloquently said, as Congressman 
Sherman so eloquently said, as Congressman Burton and everyone 
else, practically, so eloquently said, there are many other 
conflicts around the world that we could be involved in, 
because they are harming their own citizens. Why did we pick 
Libya?
    We've never been asked for permission to do this. We are a 
nation that has economic issues domestically. We have to 
tighten our belt, and now are in Libya with no exit plan, no 
strategy for winning. And I want to know what the cost is, both 
economically, the cost to our military, and the security and 
safety of our men and women on the battlefield, and the men and 
women here at home. Thank you.
    Chairman Ros-Lehtinen. Thank you, Ms. Schmidt.
    Mr. Chabot, Subcommittee on the Middle East and South Asia 
chairman is recognized for 2 minutes.
    Mr. Chabot. Thank you, Madam Chair. First of all, I want to 
thank you for holding this hearing. I also want to say 
something that I don't say too often in this committee, and I 
think the gentleman has just left, but I'd like to associate 
myself with most of the remarks that I heard from the gentleman 
from California, Mr. Sherman here. I have many of the same 
concerns that he did.
    One common characteristic that unites, or will unite many 
of the questions that will be raised here today is just that, 
that they're questions. The fact of the matter is that we're 
sitting here today, we know far too little about the nature of 
the operation in Libya. Even the most basic questions about 
what our objectives are, or how exactly the administration 
supposes that we will achieve them are completely unknown, have 
been unrelated to the United States Congress.
    No plans have been presented here. No time line has been 
offered, no contingencies have been discussed. I'm left to 
believe one of two possible conclusions; either the 
administration has no plans at all, or they have not felt the 
need to inform the United States Congress of them. Either way 
that you cut it, we have serious problems on our hands.
    It's ridiculous that Congress was not consulted before this 
operation. But that aside, we need serious answers, and we need 
them now.
    I just got back from Iraq a couple of days ago, and Saudi 
Arabia, and from Egypt about 1 month ago, and Israel, and the 
Middle East is far too important an area, Northern Africa, as 
well, for the administration to take action as it has in this 
particular instance, and not include the United States 
Congress.
    And I believe that the administration would have gotten 
considerable support from the Congress. We are, after all, the 
representatives of the people. The people should have been 
involved in this decision process. And, as I said, we need 
answers, we need them now. And I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    Ms. Buerkle of New York is recognized.
    Ms. Buerkle. Thank you, Madam Chairman. And thank you for 
holding this very important hearing today.
    I look forward to hearing the testimony from my three 
colleagues. And I thank them for helping us to insure that the 
American people are engaged and are consulted before we send 
our men and women off in harm's way. So, thank you very much. I 
very much look forward to hearing your testimony.
    I yield back.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Paul of Texas is recognized.
    Mr. Paul. I thank you, Madam Chairman. I appreciate you 
holding these hearings.
    Since World War II, we've embarked in the wrong direction. 
We've been fighting all these wars, and no declaration, so the 
War Power issue is a key issue. And, hopefully, we can get to 
the bottom of it, and expand this power.
    But I think we get a pretty good idea about where the 
executive branch comes from, and I'm not so sure it would be 
unique for one party over the other. But the current Office of 
Legal Counsel to our President has said that it was necessary, 
it was okay to go to war to defend the credibility of the 
United Nations Security Council.
    I think that is an outrage. We're supposed to be defending 
the Constitution, not the national--not the United Nations 
Security Council. But this is not new. We did it in Korea, we 
ignore it sometimes, now we ignore it in Libya. The War Powers 
Resolution, which was set up in '73 was supposed to curtail 
this.
    Technically, it was deeply flawed, but it actually 
legalized war for 60 days, which always drifts into 90, and 
even our Presidents ignore that. So, this is a mess. And it's 
not all that complicated. Why do we complicate this for 
ourselves unless it's deliberate? Because we have a law, the 
law is called the Constitution.
    We're not supposed to go to war unless there's a 
declaration. We've been fighting this a long time, and the 
American people are sick and tired of it. It's draining us, 
it's draining us financially. And now we're into--how many wars 
are we in now; Afghanistan, Iraq, Pakistan, now Libya. We don't 
even know to the extent to what--how much we're involved in 
these countries.
    So, we in the Congress demand, or should demand our 
responsibilities again. It should be up to us when we go to 
war, and not to the executive branch.
    I yield back.
    Chairman Ros-Lehtinen. I did not know if that was a 
pregnant pause to lead up to a crescendo.
    Mr. Paul. It was really pregnant.
    Chairman Ros-Lehtinen. Thank you, Dr. Paul. And Mr. Smith 
yields back his time.
    And now we're so pleased to recognize our witnesses. Let me 
introduce them. Congressman Justin Amash, who represents 
Michigan's Third Congressional District, sits on the Budget 
Committee, and on the Committee of Oversight and Government 
Reform where he serves as vice chair of the Subcommittee on 
Federal Workforce, U.S. Postal Service, and Labor Policy.
    Mr. Amash is the author of H.R. 1212, the Reclaim Act, 
which he will discuss with us this morning.
    Also joining us is my friend, Congressman Tom Rooney from 
Florida's 16th District, and he is the author of House 
Concurrent Resolution 32.
    In addition to his service on the Armed Services and Intel 
Committees, Mr. Rooney is chairman of the Agriculture 
Subcommittee on Livestock, Dairy, and Poultry. A former 
Assistant Attorney General in Florida, Congressman Rooney also 
taught constitutional and criminal law at the United States 
Military Academy at West Point. Mr. Rooney also served in the 
U.S. Army Judge Advocate General (JAG) Corps as an attorney. 
And he's a University of Miami Law School grad.
    Congressman Chris Gibson, welcome. He represents the 20th 
District of New York. He serves on the House Armed Services 
Committee, and the Committee on Agriculture. He is the author 
of House Resolution 1609, the War Powers Reform Act.
    In addition to holding a Ph.D. in government from Cornell 
University, Mr. Gibson is a seasoned combat veteran, and a 
retired colonel with the U.S. Army, who served four combat 
tours in Iraq, was decorated with two Legions of Merit, four 
Bronze Star medals, and the Purple Heart.
    Thank you so much. It is an honor to have all three of you 
with us today. As noted before, all of your statements will be 
made a part of the record. And I'll ask you to summarize your 
remarks.
    And Mr. Amash needs to leave after his remarks, but 
Congressmen Rooney and Gibson have agreed to stay and take 
questions from our committee members.
    So, we will begin with Congressman Amash, because he's got 
other duties. Thank you so much.

  STATEMENT OF THE HONORABLE JUSTIN AMASH, MEMBER OF CONGRESS

    Mr. Amash. Thank you, Chairman Ros-Lehtinen, and committee 
members for holding this hearing and inviting me to testify on 
this important and timely topic. It's an honor to be here.
    The Constitution vests Congress with the power to declare 
war. We are at war in Libya. Either Congress must authorize our 
strikes against Libya, or Congress must withdraw the use of 
force. What Congress cannot do is to continue standing by idly 
as our constitutional war powers are disregarded.
    The founders distributed the decision to go to war between 
the two political branches to assure that the decision will be 
made carefully. The founding generation experienced the 
hardship of several wars, and they knew wars' human and 
financial costs. They understood that a strong Executive, who 
is already given the title Commander-in-Chief, might flex the 
country's military strength injudiciously.
    Giving Congress the essential power to declare war allows 
heads to cool, alternatives to be considered, and makes certain 
there is consensus if the country is called to fight.
    If Congress' authority to declare war has any content, at 
minimum it must prevent the Executive from starting an 
offensive war without Congress' consent.
    President Obama once held this view. As a candidate, he 
told the Boston Globe, ``The President does not have power 
under the Constitution to unilaterally authorize a military 
attack in a situation that does not involve stopping an actual 
or imminent threat to the nation.''
    In 1973, Congress codified this constitutional 
understanding in the War Powers Resolution. The law allows the 
President to introduce the armed forces into hostilities in 
only three circumstances pursuant to (1) a declaration of war; 
(2) specific statutory authorization, or (3) a national 
emergency created by attack upon the United States, its 
territories or possessions, or its armed forces.
    Congress has not declared war or authorized use of force 
against Libya. And, of course, Libya has not attacked us. The 
undeniable conclusion is that the President is breaking the law 
by continuing the unilateral offensive war against Libya.
    The administration has tried to paper over its legal 
actions by first consulting with Congress. The War Powers 
Resolution does require the President to consult with Congress 
in every possible instance before introducing the armed forces 
into hostilities, and regularly during a military engagement.
    I appreciate consultations as much as the next Member of 
Congress, but letters and phone calls from the White House 
cannot substitute for the constitutional requirement that 
Congress act. With pressure from the public and some Members of 
Congress building, the President signaled on Friday that he now 
supports Congress' authorizing the war.
    Anyone concerned about constitutional war powers should 
read the President's letter to Congress carefully. The 
President voiced support for a Senate resolution on Libya that 
was not public at the time. However, the President stated, 
``The purpose of the resolution was to confirm that Congress 
supports the U.S. mission in Libya.''
    Congress has passed almost no legislation regarding Libya. 
We have not even approved supplemental funding for the $1 
billion war, so I'm not sure why the President believes we 
merely should confirm our support for the war.
    Whether or not the President actually asked for 
authorization of force, the larger question Congress must ask 
itself is, why have we waited for the President's request? The 
country has been at war for 67 days, and we have neither 
authorized force, nor ordered force to be withdrawn. There is 
no greater sign that Congress' constitutional muscles have 
atrophied than the fact that we only became interested in 
authorizing the war after the President told us to do so.
    I wrote H.R. 1212, the Reclaim Act, to require the 
President to obtain Congress' specific authorization before 
continuing military action against Libya. My bill's requirement 
of specific authorization tracks language in the War Powers 
Resolution, and the Constitution's mandate that the legislature 
and Executive agree before the country wages offensive war.
    The President's orders to strike Libya are outlawed by the 
War Powers Resolution. His unilateral decision to take us to 
war violates the Constitution. The tragedy for our system of 
self-government would be if Congress continued to do nothing.
    Pass the Reclaim Act to require the President to obtain 
congressional authorization before continuing the strikes. 
Thank you.
    [The prepared statement of Mr. Amash follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you so much, and we are 
honored by your presence. We'll look at your legislation. We 
understand you have other duties. Thank you so much.
    So pleased to recognize my colleague from Florida, Mr. 
Rooney.

  STATEMENT OF THE HONORABLE THOMAS ROONEY, MEMBER OF CONGRESS

    Mr. Rooney. Thank you, Chairman Ros-Lehtinen, Ranking 
Member Berman, and members of the committee. Thank you for the 
privilege to appear before you today, and for holding this 
hearing.
    As a former professor of Constitutional Law at West Point, 
I have tremendous respect for our founding fathers and the 
roles regarding military engagement they assigned to the 
executive and to the legislative branches. I am not here to 
debate the constitutionality of the War Powers Resolution, and 
will leave that to the Supreme Court.
    However, before discussing the President's adherence to the 
War Powers, or lack thereof, I think it's important to discuss 
the general concept of how the United States goes to war.
    Article I Section 8 vests in Congress the power to declare 
war, raise and support the armies, and to make all laws 
necessary and proper for the execution of these powers, while 
Article II Section 2 establishes the President's role as 
Commander-in-Chief. The framer's intent is clearly for two 
branches to work flexibly and in tandem.
    Congress' true check on Executive authority is its power of 
the purse, and raising of armies. I think it's fair to say the 
United States would not have a military for the President to 
command without the structure and funding that Congress 
authorized to create it.
    Now, let's fast-forward to November 1972. The opposition to 
the war in Viet Nam was at its height, and that year's election 
brought a Democratic Majority to the both chambers. The 
following year, Congress passed the War Powers Resolution 
overriding President Nixon's veto. Operating under its 
constitutional authority, Congress essentially asserted, ``If 
you're going to go to war and send our troops into harm's way, 
you need us and the American people on board.''
    Thus, if the President and Congress must agree on war 
fighting, then the United States will enter into fewer wars, 
and the conflicts we do enter will only occur after sufficient 
reason and deliberation.
    The War Powers Resolution requires the President to notify 
Congress within 48 hours of committing armed forces to military 
action, and forbids armed forces from remaining for more than 
60 days without an authorization of the use of military use, or 
a declaration of war.
    When President Obama first announced his decision to join 
our NATO allies and intervene in Libya, he operated within War 
Powers, and notified Congress of that decision within 48 hours. 
However, on May 20th, 2011, Day 60 of the United States' 
engagement in Libya, the President waited until late in the 
evening to send a letter to Congress in a futile attempt to 
obtain our support for the efforts in Libya. The President 
again refused to make his case to Congress, requesting we 
simply endorse a carte blanche resolution supporting limited 
efforts such as this in Libya.
    Obama's intent to engage is clear. Outlined in an April 
memo out of the Department of Justice, the administration 
argued that the hostilities are of limited nature, scope, and 
duration; and, thus, do not rise to the level of war. Instead, 
the administration preferred to describe our engagement with a 
more redundant euphemism, ``kinetic military action.''
    Neither the War Powers Resolution, nor the Constitution 
provides any illusion that if an act of war is small, or led by 
NATO, then it is not an act of war. This flies in the faces of 
Obama's own words, as Representative Amash previously stated 
when he said in 2007, ``The President does not have the power 
under the Constitution to unilaterally authorize a military 
attack in a situation that does not involve stopping an actual 
or imminent threat to the nation.'' To date, it has been 65 
days since the President has been acting unilaterally without 
Congress, 5 days longer than permitted by law.
    My bill, House Concurrent Resolution 32, expresses the 
sense of Congress that the President should adhere to the War 
Powers Resolution, and obtain specific statutory authority--
authorization for the use of United States armed forces in 
Libya. My resolution does not speak to whether or not military 
action is or is not warranted. It may very well be, but rather 
that the President make the case to Congress to allow the 
Congress to debate it; and, thus, determine at some point if we 
are on board.
    What we're asking for is simple, that the President respect 
our role in the spirit of the Constitution, the separation of 
powers, and the Rule of Law.
    Thank you for this opportunity to discuss my legislation, 
and I welcome questions the members may have.
    [The prepared statement of Mr. Rooney follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you so much, Mr. Rooney.
    Mr. Gibson.

   STATEMENT OF THE HONORABLE CHRISTOPHER GIBSON, MEMBER OF 
                            CONGRESS

    Mr. Gibson. Well, I'd like to begin by thanking the 
chairwoman, the ranking member, and members of the committee 
for holding this hearing. I sincerely appreciate the 
opportunity to come before the committee to address what I 
believe is a pressing issue facing our country today.
    While the debate over Presidential war powers has 
resurfaced as a result of the ongoing operations in Libya, as 
those assembled here today know full well, the ambiguity 
surrounding this issue has been the source of controversy for 
decades despite, and perhaps in spite of the War Powers Act 
passed over the President's veto in 1973.
    While it is somewhat encouraging that in recent days the 
President has taken steps to obtain congressional approval, 
it's unclear why he waited until the 60-day period had passed, 
and why he sought approval from several international 
organizations prior to the mission, but failed to consult or 
seek statutory authorization from Congress.
    In view of the War Powers Act, I believe the President's 
actions are on dubious constitutional grounds, but I want to be 
clear. This is not a new phenomenon. Presidents from both 
parties have been on dubious grounds with regard to the War 
Powers Act, perhaps not surprising given that no President 
since its enactment has acknowledged its constitutionality.
    It's time to bring clarity to the situation, and to resolve 
the matter of Presidential war powers.
    As a student of history and former professor of American 
Government, I frequently turn to the Federalists Papers, the 
notes on the Constitutional Debate, and the Constitution, 
itself, to derive the intent of the founders. It is my belief 
that the founders envisioned a shared role between the 
executive and legislative branches with regard to war making.
    Ever concerned about unchecked power, especially unchecked 
Executive power, the founders vested in the Congress the power 
to declare war. The American people would have say in the 
solemn decision on the use of force through their duly elected 
representatives, Federalist Paper 69.
    The founders also envisioned energy in the Executive, 
Federalist Paper number 70, and the ability to defend the 
country, and to lead our armed forces in time of war by 
investing in the President the responsibilities of Commander-
in-Chief.
    As political scientist and Presidential historian, Richard 
Neustadt, noted, ``The founders set up a constitutional design 
where separate institutions share power.'' Since World War II, 
and in part a result of the Cold War, the existential threat 
from the Soviet Union and the specter of nuclear war, over time 
these war powers have accumulated in the executive branch, this 
recent operation in Libya, being only the latest example of 
executive fiat.
    It's time to restore balance to the executive-legislative 
branch relationship, and bring back in the voice of the 
American people on matters of war and use of force. It's time 
to reform the War Powers Act.
    Recently, I introduced legislation that fundamentally 
amends the War Powers Act. My bill, H.R. 1609, which currently 
has 12 cosponsors, including two distinguished members from 
this committee, Mr. Burton and Mr. Johnson, the War Powers 
Reform Act seeks to restore the founders' intent by clarifying 
when the President has the authority to deploy our armed forces 
into hostile circumstances.
    This bill empowers the President to act under the following 
circumstances; declaration of war, specific statutory 
authorization from Congress, including obligation under treaty, 
a national emergency created by attack or imminent threat of 
attack upon any of the United States, its territories or 
possessions, or its armed forces.
    The most significant provision in my bill is a new section 
regarding the limitation on the use of funds. In none of these 
foregoing--if none of these foregoing circumstances are met, 
the President may not obligate or expend funds to deploy the 
armed forces of the United States. The 60-90 day provisions in 
the current War Powers Act are deleted.
    Over the years, these provisions have proven vague, 
ineffective, and counterproductive to the intent of the War 
Powers Act. This new provision regarding prohibition of funds 
provides a much needed enforcement mechanism and reasserts 
congressional authority in both authorizing funds, as well as 
making war.
    As seen in the current operations in Libya, the Executive 
currently has the ability to cost-shift with funds already 
appropriated, and then subsequently reprogramming or requesting 
funds after actions are complete. The administration's ability 
to do so denies the American people their voice in authorizing 
military action.
    Among other new provisions added by my bill, Section 2(c) 
of the War Powers Act is amended to allow Presidential action 
if the nation is under imminent threat of attack, something 
absent in the original bill. In this instance, imminent threat 
is defined as credible intelligence that a hostile force is 
about to attack our country.
    Other changes to the War Power Act include the elimination 
of antiquated reporting requirements, which are no longer 
needed, because the Executive would be prohibited from acting 
without first seeking congressional authorization.
    Finally, the War Powers Reform Act contains an exemption 
for the State of Israel in the event that they are attacked. 
Thus, in essence, a vote for this bill is tantamount to 
providing the Executive with the authority to defend one of our 
closest and most vulnerable allies.
    To date, the United States does not have a Senate confirmed 
mutual defense treaty with Israel. While it is virtually 
impossible to foresee events and threats in a constantly 
evolving world, the need to immediately defend one of our 
greatest partners is one we can envision.
    In conclusion, while this bill responds to the situation in 
Libya, the broader intent is to restore balance to the 
executive-legislative branch relationship on matters of war 
power.
    Regardless of where you stand in relation to the operation 
in Libya, you should support this bill to insure the American 
people have a say regarding when this nation goes to war.
    I look forward to dialoguing with the committee, and I urge 
in the aftermath of this hearing that you move to markup on 
this bill. I'm certainly open to amendment, and look forward to 
your thoughts on that score. Our country needs the War Powers 
Reform Act.
    Again, thank you for the opportunity to be with the 
committee, and I look forward to your questions and comments.
    [The prepared statement of Mr. Gibson follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Chairman Ros-Lehtinen. Thank you very much, Mr. Rooney, and 
Mr. Gibson. And I will start the 5-minute question and answer 
period.
    The U.S. deployment to Libya did not fall within one of the 
situations authorized by Section 2 of the War Powers 
Resolution. They were not undertaken pursuant to, (1) a 
declaration of war; (2) a specific statutory authorization, or 
(3) a national emergency created by an attack on the United 
States.
    Do you agree with those who assert that the Obama 
administration is claiming unprecedented prerogatives in the 
use of U.S. military force even beyond those asserted by the 
prior administration?
    And on that same theme, would your position differ if the 
President had acted pursuant to either, (a) a declaration of 
national emergency due to the threats to U.S. interests posed 
by the Libyan regime, or (b) an Executive Order?
    Is the concern that he acted to enforce the ``Writ of the 
International Community,'' or to implement the pertinent United 
Nations Security Council Resolutions? Mr. Gibson.
    Mr. Gibson. My concern, very succinctly put, is that the 
President did not come here first for authorization for any 
kind of military action in Libya.
    I would also tell you that, in my view, it is not 
unprecedented. In fact, particularly since Korea, we've seen 
Presidents do this. And we've seen it on both sides of the 
aisle. Take a look at President Bush, Sr., and his actions in 
Panama, take a look at the No-Fly Zone after the Persian Gulf 
War, when he implemented that without congressional authority. 
And, also, President Clinton, in terms of prior authorization 
before commencing operations in the former Yugoslavia.
    So, I want to be clear that what I'm not looking to do here 
is begin a political witch hunt. What I want us to do is, from 
the perspective of Congress, is to bring clarity to the 
situation. I want to see us reform the War Powers Act so going 
forward we can bring clarity to this situation.
    This current situation really helps no one. You've got a 
situation where the Executive is saying we don't need 
congressional authority. It's certainly not helping our 
country. I would think that a President, regardless of party, 
would welcome bringing clarity to the situation with a bill 
that Congress, both sides of the aisle, should work with the 
administration to bring that kind of clarity.
    I think it's important to note the historical examples. 
Look at the founding era. With regard to what the founders said 
in those founding documents, certainly, the Constitution, the 
Federalist Papers, the notes on the Constitution, and 
importantly how they lived their lives in that first generation 
after the enactment of these key seminal documents.
    Look at 1798, when we were engaged in what President Adams 
said was a war with--essentially needed to take military action 
against France for what they were doing on the high seas. He 
came to the Congress for authority. He requested authority, a 
Federalist, somebody who believed in expansive government view.
    And then you look at President Jefferson, somebody with a 
more limited view. In 1802, when he took action against 
Tripoli, he felt it was necessary to come to the Congress to 
first get authorization.
    I think it's important to note in neither of these cases 
did we declare war. So, the notion that only time military 
forces can be used is a declaration of war, doesn't comport 
with the history of the first generation of our leaders after 
the enactment.
    So, that's what I would tell you, Madam Chairwoman, that I 
think we need to bring clarity to the situation. I don't think 
it's unprecedented, but I do think it's the Congress' role now 
to take action going forward so we can strengthen our country.
    Chairman Ros-Lehtinen. Thank you, sir. Mr. Rooney?
    Mr. Rooney. Yes, I would agree. I think that, certainly, 
it's not unprecedented. What Congressman Gibson has said with 
regard to Kosovo, Haiti, we've heard even similar language that 
the President is using right now with welcoming Congress' 
suggestions, like we're a suggestion box. As rude as that might 
sound, it's the same exact language that President Clinton used 
before going into Haiti, or Kosovo, so the question really is, 
do we want to keep operating under this, us versus them 
mentality where the Supreme Court has had the opportunity to 
weigh in before, and really hasn't with this issue. So, it's 
really on us, I think, as was said, to clarify.
    With regard to the other part of your question, in cases of 
emergency, I think in accordance with the War Powers 
Resolution, certainly, the courts have said that the Commander-
in-Chief does have a responsibility to act as our point man in 
national security issues when it's unreasonable to assemble the 
Congress fast enough to deliberate and get a declaration of 
war.
    You know, there are situations where things happen in the 
middle of the night in Abbottabad, Pakistan, where he needs to 
send in the seals, and we might not be able to get together 
quick enough to successfully pull that off. That's where the 
War Powers Resolution comes in saying fine, now you have 48 
hours to notify us, 60 days to let us get our arms around it, 
debate it, whether or not we're on board, as I said in my 
testimony, or not. And it not, then you have 30 days to 
withdraw.
    So, I think that the emergency provision is fine. I just 
think that we're sort of operating in this gray area right now, 
and it's our responsibility to figure out if we're going to 
keep doing that for the future, or change it.
    Chairman Ros-Lehtinen. Thank you very much, gentlemen. I'm 
pleased to recognize Mr. Berman for his questions.
    Mr. Berman. Thank you very much, Madam Chairman. And I go 
back to a point I made in my earlier comments.
    There is an aspect of all of us here that's somewhat 
hypocritical on this issue. And Mr. Gibson's bill, at least--I 
mean, the sense of Congress stuff does not fundamentally 
address the issue. I gather Mr. Gibson has a bill that says 
we've been acquiescing, we in Congress, since at least the 
Korean War, although I'm not sure that we didn't take some acts 
of war against the Barbary Pirates off Libya before the 
Congress ever approved that, even under Jefferson. In 
Jefferson's time, if I recall, there was some later 
congressional action. But at the time, I'm not sure he didn't 
do some--authorize some of our Navy, and direct them to do 
certain things that could be called acts of war before the 
Congress spoke. But we certainly have acquiesced since the 
Korean War.
    And I take it Mr. Gibson's bill is less about Libya than 
making sure there are no more Libyas, or Panamas, or Grenadas, 
or Haitis, or Koreas, or Vietnams without a process by which 
the Congress has spoken at a certain point.
    I am curious, so again I go back to this point. I was on 
the conference call, my chairman may have been, as well. I'm 
trying to recall exactly, when the President in response to a 
question from Senator Lugar said prior to the commencement of 
operations in Libya, that he thinks the limited role the U.S. 
will be playing is within his ``Article II'' powers. Not a lot 
of challenge on that call, except perhaps from Senator Lugar to 
that assertion. But that's the way he viewed it. And I know 
what he and others have said before they became President, and 
what they've done since President. And Congress has acquiesced.
    We passed a Fiscal Year 2011 appropriations bill that 
didn't contain any provision to cut off funding, or to cut off 
funding if no authorization is made within 60 days. There is a 
DOD bill now on the floor. I'm unaware of any amendment to that 
bill that has been made an order that cuts off funding for the 
Libya operation. I'm unaware of the people who control the 
agenda in the House setting either a resolution to authorize 
the use of force, or to cut off funding. So, before we point 
too many fingers at anybody else, we have to decide how much we 
want to take up.
    The question, I guess, I have, I'm intrigued by 
Representative Gibson's bill. In effect, are you saying that 
where we have a mutual defense pact, we have preauthorized the 
use, in a sense, the authority to engage in hostilities without 
a congressional action to determine whether the facts of those 
hostilities do exist and, therefore, meet the terms of that 
treaty? Because you do seem to have an exemption for your 
cutoff both for Israel in one section, and for countries with 
whom we have mutual defense treaties.
    Mr. Gibson. Well, I thank the ranking member.
    What I doing is putting a highlight in an area that I don't 
think the American people fully recognize, is that between 1947 
and 1960, we entered into seven defense agreements where we, 
the American people, gave our word.
    Now, when you look at the details of the treaties, for 
example, NATO, it does say consistent with the individual 
country's constitutional provisions. So, one would expect that 
the administration would still come back here for 
authorization. But what I'm trying to raise our level of 
consciousness is that even though we would have a vote in 
accordance with our constitutional provisions we, the American 
people, gave our word that we were going to be involved in a 
defense pact.
    Now, this really gets back to the founding. The founders 
provided stipulations for treaties and for trade agreements. 
They put stipulations in there. Our first President warned 
against the entanglements of treaties, but he never questioned 
the constitutionality of it.
    So, the short answer to your question is that there would 
still be an authorization of force, but think about what that 
vote would mean. Think about what that vote would mean for a 
second, because we, the American people, gave our word. And I 
have the seven treaties, if the committee is interested in 
hearing--reviewing that for the record. But in previous times, 
leaders invested with our powers have given our word, so I'm 
just bringing that to light, because I think that needs to go 
into the conversation.
    You know, I----
    Mr. Berman. And the basis for the Israel exemption, where 
we don't have that treaty?
    Mr. Gibson. Well, here's the thing with regard to that 
question, is that when you look at the current situation here 
in Israel, among our very closest allies in a precarious 
situation, and that we can't foresee all situations in the 
world.
    What I'm saying is a vote for this bill is tantamount to 
the American people telling the Executive that we give our 
consent, that if Israel is attacked that you would have the 
authorization to move. So, the key point here is process.
    MR. Berman. All right. Then let me just follow that up. And 
what about the situation where if we don't act, there is a 
genocide, there is a massive humanitarian catastrophe, a 
disaster that could involve thousands, or tens of thousands, or 
hundreds of thousands of people dying, should we pre-approve 
that situation? I mean, part of the logic of Israel is the 
never-again notion. Should that be incorporated into the 
standard?
    Mr. Gibson. I would say that the key thing to know about my 
bill is to know that it engages the American people in a 
conversation, their representatives.
    Mr. Berman. That's what I'm trying to do, is have the 
conversation.
    Mr. Gibson. Well, that's right. So, the only thing I'm 
stipulating in this bill is to move to defend the people of 
Israel. Beyond that, because that's a discussion we can have at 
the same time we're working our way through this bill.
    But with regard to any other actions, that's something that 
the Congress would need to be involved with, not pre-approving, 
but involved in discussions.
    MR. Berman. Well, let me make sure I understand then. Your 
bill doesn't negate the obligation for the authorization, but 
what it does is, in situations not exempted provide for the 
automatic cutoff of funds. Is that a----
    Mr. Gibson. What this bill----
    Mr. Berman. Absent an authorization.
    Mr. Gibson. What this bill says, sir, is that only in 
certain circumstances may the Commander-in-Chief move. If he 
does not have authority, he has to come here for authorization, 
or he can't obligate or expend funds.
    Mr. Berman. But the War Powers Act, this doesn't--your bill 
doesn't repeal the War Powers Act. The War Powers Act gives the 
President in certain limited circumstances the authorization to 
make war for a limited period of time under those conditions if 
he meets certain requirements.
    Mr. Gibson. Thank you for asking that question, and to 
allow me to clarify. This reform act eliminates those portions 
of the War Powers Act. So, the 60-90 day, I think that that's 
been counterproductive. I think that's added to the confusion 
of the situation.
    What this reform act says is the President either has 
authority to move, or he's to come here to get that authority. 
And if he doesn't have that authority, then he may not obligate 
or expend funds.
    MR. Berman. And, so, if I want to create some conditions 
that you--beyond those where you've already given authority, 
then the argument to take your bill and amend it to include 
those situations, or if I don't agree with what you've 
exempted, to get rid of your exemptions.
    Mr. Gibson. That's a discussion we could have, absolutely, 
we, the Congress.
    Mr. Berman. Yes. Thank you.
    Chairman Ros-Lehtinen. Thank you very much. Mr. Rivera is 
recognized.
    Mr. Rivera. Thank you, Madam Chair, for both panelists. I'm 
intrigued particularly because of your military experience to 
inquire as to what you think the difference is over history in 
terms of the practicality of being able to execute war. Warfare 
has changed a lot since the time of Adams and Jefferson, and 
what risks possibly could be posed or how you would respond to 
those that would critique your proposals by potential risk to 
our national security, because of expedited time frames, 
perhaps, that could occur in terms of jeopardy to our troops, 
in terms of having a drawn out conversation or discussion about 
some of these national security matters, or military matters. 
How do you respond to those that would raise those issues?
    Mr. Gibson. Well, I thank the gentleman for the question. 
It's certainly something near and dear to my heart. After 
serving our country in uniform for 24 years active, and 29 
years total counting the National Guard when I was in high 
school and college, it's something I'm firmly committed to, now 
and all days forward.
    But I would also tell you that what this bill does is we 
put in the reform act the clause, the imminent threat of 
attack. We put that in there so the President can respond to 
emerging situations to protect our country. Now, keep in mind 
that the founders also looked at these issues, and they 
certainly expected that the Commander-in-Chief would be able to 
be empowered to repel attack, to take actions to protect the 
homeland. So, I would tell you that.
    And I think, also, with regard to the ranking member, 
something you mentioned earlier, it's important to note that 
when President Roosevelt came here to the Congress on the 8th 
of December, when he reported to the Congress he said, ``I have 
taken actions already consistent, as the Commander-in-Chief, 
and I ask that the Congress declare that a state of war 
exists.'' So, I think it's important, because there's a 
recognition there that the Commander-in-Chief has a role, but 
so does the people, their representatives have a role by coming 
and declaring war.
    Now, that's the first thing I would say, sir. And then the 
second thing I would say is that in particular circumstances, 
the Congress comes together to either authorize or not 
authorize action. In this case here, in this current conflict, 
we have authorized. We have authorized military actions against 
those who planned, coordinated, and conducted the attacks 
against our country on the 11th of September. So, there's an 
authorization already from the American people by way of their 
representatives to conduct such operations, such as the one 
that occurred in Abbottabad, Pakistan, as we went after Public 
Enemy Number One, the mastermind, the commander of the forces 
that attacked our country.
    Mr. Rivera. Mr. Rooney?
    Mr. Rooney. When I was referring to Abbottabad, it was 
simply as an example of how things, but you're absolutely 
right. I would certainly put that within the jurisdiction of 
that authorization. But with things that would occur around the 
world that might not fall within the jurisdiction of that 
authorization, which I think is what you're sort of referring 
to, absolutely.
    I have to say to Colonel Gibson, I haven't read his bill, 
so I don't want to speak to it. I'm simply speaking from my own 
resolution, which I know, sir, that you think that it's 
continuing to act hypocritical, or a sense of Congress self is 
just acquiescing. I've been here for 3 years. This is the first 
time we've gone into this territory since I've been here, and 
we're introducing a resolution. So, hopefully, you don't think 
that's acquiescing.
    We're trying to, I think, do what the people sent us here 
to do, and that's to follow the Rule of Law, which as the 
Commander-in-Chief, the President of the United States, his 
primary goal is the chief law enforcement officer. So, if he 
ignores the War Powers Act, as other Presidents have, my 
question that I look in the mirror and say, what are you going 
to do about it, which results with this resolution? So, I would 
get back to also, though, I do believe that the 60--we could 
amend 60-90 day however, but I do believe, and this might be 
counter to what my colleague here, his proposal is saying, I 
think. I do believe that there are circumstances where the 
President, as Commander-in-Chief, should have the authority in 
the middle of the night to make a decision where he might not 
be able to get congressional approval. And I think that the War 
Powers Resolution addresses that by saying, but within 60 days 
it should be plenty of time to get our authorization to 
continue, and to get us on board. And I think that--my 
resolution simply says that, to adhere to the Rule of Law as it 
exists.
    I think that the gentleman from New York goes beyond that, 
and I can't speak to that. But I certainly would be open to 
that, but I'm simply saying the law that we have now is being 
ignored. The Congress' role is basically irrelevant now unless 
we do something about it, and that's why I think that my 
resolution would request the President to adhere to the Rule of 
Law.
    Mr. Rivera. Mr. Gibson, did you want to follow-up?
    Mr. Gibson. Thank you very much. I do, very quickly. I just 
wanted to assert beyond any shadow of a doubt that I absolutely 
do believe we need to go further. We have specific limits of 
authorization that are in the reform act, and that beyond that, 
if the President wants to act, he must come here. And we tie it 
to obligation in expending of funds. That's really the point.
    The point is that I think that there is enough 
authorization here for the Commander-in-Chief to act to defend 
us, defend our country. But beyond that, we should be involved. 
The American people should have a say, so if it's not an 
imminent threat to our country, if the President wants to move 
in the middle of the night, he's going to have to wait until he 
comes to the American people by way of their representatives 
first.
    Chairman Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Rivera. Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman, and welcome to 
both of our colleagues.
    Let me ask, our colleague, Mr. Paul, made the point in his 
opening statement that the War Powers Act in some ways dilutes 
the constitutional role of Congress in exercising its war 
powers. Doesn't he have a point?
    Mr. Gibson. Sir, to the degree that we have ambiguity on 
the 60-90 day colloquy that just occurred moments ago, I'd have 
to agree. And that's part of the reason why I'm trying to bring 
clarity to the situation.
    With regard to the issue, must it be a declaration of war 
or an authorization of force, what I would say, sir, is that 
you look at the first generation of leaders, those that were 
there in Philadelphia in that hot summer, those that came to a 
final compromise on what the Constitution would contain, those 
leaders who led us, they, themselves in 1798 and in 1802, they 
went with an authorization for the use of force rather than a 
declaration of war.
    And in one case, the President even asked for a 
declaration, and the Congress gave him an authorization. So, I 
would tell you that I'm comfortable with laying out these 
details, which are the declaration of war, the specific 
statutory authorization, or an emergency created by an attack 
or imminent threat of attack.
    Mr. Connolly. The evolution of this issue is a fascinating 
one, because the executive branch argues that there are 
virtually--well, they argue there are lots of inherent powers, 
constitutional inherent powers contained in the reference in 
the Constitution to the President's role as Commander-in-Chief.
    Are there inherent powers, do you think, in the War Powers 
of Congress in the Constitution? I mean, if there are inherent 
powers in one, why aren't there inherent powers in the other?
    Mr. Gibson. You pose an interesting question. And I think 
that the key here is the notion of a countervailing balance 
here that this is really meant to be a dialogue between the 
legislative and executive branch. So, we really perform checks 
on each other by including the legislative branch. And I think 
it's important to note on this score that it's not just Adams, 
John Adams and President Jefferson, it's also President 
Eisenhower in the post World War II period. President 
Eisenhower was taking--he foresaw the possibility of having to 
react in then Formosa in the Suez, and he came here to the 
Congress to ask for authorization for that. So, there is a 
sensitivity by President Eisenhower that he could not by fiat 
take us to. Just as--so the Congress then had to be 
participating in this.
    Mr. Connolly. Let me, if I may, Congressman Gibson, because 
I'm actually pretty sympathetic to your point of view. But are 
there not, as Mr. Rooney indicated, going to be some 
circumstances, though, in which practically we've got to allow 
the President to deploy troops and come to us after-the-fact? I 
mean, I think Mr. Rooney cited, dead of the night, Congress is 
not in session, and there's a real threat.
    Now, let me pose some hypotheticals to you. The President 
decides that we just need to intervene in a civil war in 
Central Africa. Under the terms of your proposed legislation, 
he would have to come to Congress before he could do that.
    Mr. Gibson. That is correct. Unless a country or there was 
an imminent threat of attack that was coming from a country 
there, then the President would be authorized to move in his 
capacity as the Commander-in-Chief.
    Mr. Connolly. All right. But let's say there is an imminent 
threat to a NATO ally that we're sworn to protect and defend, 
Country X decides to invade a NATO ally in Central Europe, is 
the President under the terms of your legislation allowed to 
respond to that threat and come to Congress subsequently?
    Mr. Gibson. He would come here first before responding. And 
I would remind the----
    Mr. Connolly. Wait, wait.
    Mr. Gibson. Go ahead.
    Mr. Connolly. That is problematic, it seems to me. I mean, 
I understand the intent, and I'm not unsympathetic with the 
intent, but practically speaking, we have an ally that can't 
wait. Their borders have been breached, perhaps even superior 
force brought to bear. The President hasn't got a lot of time 
in which to come up to Congress and draft legislation, and have 
us debate and pass or not pass a resolution of authorization. 
It may be overtaken by events by the time we get around to it.
    So, surely, it's reasonable in that set of circumstances, 
is it not, that we'd want to give more leeway to the President 
to exercise his executive authority?
    Mr. Gibson. I would--first of all, very thoughtful 
question. I would also bring to the fore here the fact that in 
the aftermath of the 11th of September, we had the first draft 
for the authorization of use of force on the 13th and the 14th. 
The first vote took place in the Senate on the 14th, and by the 
18th of September it was the law of the land that the President 
was authorized to move.
    Having conducted operations, as part of my military 
experience, I commanded the Global Response Force for the 
United States, for the Army's component of the Global Response 
Force, and we were on, essentially, an 18-hour--at the most 
heightened state of alert, we were on an 18-hour string 
prepared to go wheels up anywhere around the world.
    And I will tell you that inside the planning cycles that it 
would take to conduct joint operations, there is time for the 
Congress to deliberate and to give its consent.
    Mr. Connolly. Well, Madam Chairman, I don't know that the 
clock is working, and I don't wish to impose. My clock still 
says I have 5 minutes. But if I may just say, I really--I want 
to thank our two colleagues for a very thoughtful contribution 
to this debate. And I find myself on common ground with our 
colleague, Mr. Paul, on the fact that, frankly, with whatever 
intentions, let's assume they were all good, I think the War 
Powers Act, by even acknowledging there's a statutory need to 
codify our powers in the Constitution, has had the unintended 
effect, perhaps, of enhancing the Executive's powers directly 
at the cost of Congress. And that, frankly, for an awful long 
time, we have abrogated our responsibilities constitutionally. 
And, from my point of view, the Executive has encroached and 
expanded beyond the giggle test its powers pursuant to the 
Constitution in this regard.
    I think there are practical issues we're going to have to 
work out, but I think Mr. Gibson, Mr. Paul, and Mr. Rooney all 
have a point, and they're going to find me sympathetic as we 
move forward.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much. Ms. Ellmers of 
North Carolina is recognized for 5 minutes.
    Ms. Ellmers. Thank you, Madam Chairman. Thank you, again, 
for being here today. This is a wonderful exchange of 
information on an issue that I would characterize as being very 
gray.
    I do want to ask you directly, though. I know we've talked 
about the Libyan situation, and we've talked about other 
situations where the War Powers Act has been put into effect. 
Do you believe that the President had the authority to do what 
he did in Libya? And I'll ask both of you that question. Do you 
believe that the Libyan situation, basically, adhered to the 
War----
    Mr. Gibson. No, I do not.
    Ms. Ellmers. Okay.
    Mr. Gibson. Not only on the front end, but even now. Let's 
look at the specific language from Public Law 93148, which is 
the War Powers Act. It says this, because this is a matter of 
fine point precision. We're talking 60 days here. This is what 
Section 5B says:

        ``Within 60 calendar days after report is submitted or 
        is required to be submitted pursuant to Section 4A, 
        whichever is earlier, the President shall terminate any 
        use of United States armed forces with respect to which 
        such report was submitted or required to be submitted 
        unless the Congress has declared war, or has enacted a 
        specific authorization for such use of United States 
        armed forces, has extended by law such 60-day period, 
        or is physically unable to meet as a result of an armed 
        attack upon the United States.''

    Okay. So, it's not so much that the President came here on 
the 60th day. According to the letter of the law, if we don't 
act within 60 days, the President is to cease operations. And 
we're not in compliance.
    Ms. Ellmers. And we've already met that 60-day marker right 
now, and yet we have nothing going forward.
    Mr. Gibson. We have surpassed the 60 days, and Congress has 
taken no action to authorize the force. To be in compliance 
with the War Powers Act, we would have to cease operations.
    Now, if the President requests, we can then provide 
stipulations on that withdrawal. We can actually give 30, 60, 
we could actually authorize how many days we think are prudent 
to make an orderly withdrawal.
    Let me also just conclude by saying that this is the 
current law. I think we should move--I think we should delete 
these portions. I think we should either have authorization, 
the President either has authority to move, or he doesn't. And 
if he doesn't have authority to move, he comes here. If he 
thinks it's that important he comes here, and the American 
people give their blessing with stipulations, as the Congress 
may see fit, and then we go forward. But to do--but to not do 
so really leaves open this ambiguity.
    This is what Mr. Connolly is referring to, is that the 
current War Powers Act as written really provides so much 
ambiguity as to expand the powers of the President. And that's 
why we need the reform act, is to bring balance back to the 
situation in line with the way the founders intended, for the 
legislative and the executive branch to interact on these 
solemn matters.
    Ms. Ellmers. Thank you, Mr. Gibson. Mr. Rooney?
    Mr. Rooney. I, too, am apprehensive about thinking that 
Libya was justifiable. But according to my resolution, I can be 
convinced that it was the greatest idea in the world. But the 
problem is that we've never had the debate.
    Ms. Ellmers. Right.
    Mr. Rooney. And the President and the administration needs 
to come here and say more than just we welcome your support. 
So, my predisposition is no, but I'm open to suggestion. But 
you're right, the 60 days has come and gone, and just to add on 
to--in the past, there's been Members of Congress who have sued 
and gone to Federal Court to say that you're in violation of 
the War Powers Resolution, and the Constitution, and it's made 
its way to the Supreme Court without it being heard directly on 
point, that we, or those members that did sue lacked standing. 
So, that adds to your idea of we're operating in a world of 
gray, and possibly legislation like Mr. Gibson's would clarify 
that. But all I'm saying is that if he really thought that 
Libya was important, and he would have come here within the War 
Powers framework of 60 days, he may very well have gotten the 
support of the Congress, but he didn't do that.
    Ms. Ellmers. Thank you very much. Yes, please, Mr. Gibson.
    Mr. Gibson. Thank you for the opportunity just to follow-
up. I just want to agree with my colleague here that it's 
certainly an arguable point, the one that I made. I mean, 
that's my read of the current law. It has been debated in other 
places, and there have been positions, and there have been some 
court cases related to this. This is one of the reasons why I'm 
not asking today that we take sanctions against the President.
    I think it's our responsibility to fix this. The ambiguity 
that exists has been exploited by Presidents on both sides of 
the political aisle. And in a time that we need to create jobs, 
balance the budget, and protect freedoms, now is not the time 
to be diverting into other matters, other matters in terms of 
any kind of proceedings on whether or not the President is not 
in concert with the law. That is not my purpose here today. 
What I want to do is fix this going forward so we don't end up 
back here at this very same spot.
    Ms. Ellmers. Thank you very much for your testimony, and 
thank you for your comments.
    Chairman Ros-Lehtinen. Thank you, Ms. Ellmers. I am pleased 
to yield to Mr. Burton of Indiana, the chairman of the 
Subcommittee on Europe and Eurasia.
    Mr. Burton. I think one thing that needs to be clarified is 
that an attack on NATO, a member state, has the--a NATO member 
state has the right to respond to an attack, and the treaty 
obligates the other members to support the attacked member. So, 
under the treaty we have right now, NATO, attack on one is, in 
effect, attack on all. And we would respond.
    Mr. Gibson. Well, sir, there's also a stipulation in there 
to make sure that it's in concert with the provisions of the 
constitution. And one would expect that just as President 
Roosevelt did on the 8th of December, that consistent with all 
foregoing understanding of the treaty and current law, that the 
President would come here for authorization.
    Mr. Burton. Yes, well, I have no problem with that. But the 
point is, the President would have the ability immediately, if 
necessary, to respond and then get to the Congress as quickly 
as possible.
    Mr. Gibson. The gentleman raises a good point. And what I 
would say to the chairwoman is that this should be something 
considered in markup in terms of what kind of clarity.
    I happen to have a different view, but it appears that Mr. 
Burton and Mr. Connolly have different views. I think the 
important thing is that the American people are engaged. 
They're engaged right now that we're having this discussion, 
that their representatives are having this discussion.
    Mr. Burton. I'm a cosponsor of your bill, and that's one of 
the questions I have. Maybe you and I can talk and get some 
clarifying language that we could put into it in the markup.
    The other thing that concerns me is, it says in Section 3 
of the War Powers Act, it says, ``The President in every 
possible instance shall consult with Congress before 
introducing U.S. armed forces into hostilities.''
    Now, in Libya it was not something that had to be done like 
that. It was something that France, England, and the United 
States discussed, NATO was not involved at that point. And the 
President had every--had completely enough time to come to the 
Congress and discuss this. And Section 3 of the War Powers Act 
is very clear, and he did not comply with that.
    Now, the question arises what about when we're out of 
session? If it's important enough for us to commit troops or 
our resources to a conflict, all the President has to do is 
contact the Speaker of the House, the Majority Leader of the 
Senate and say I need to get these guys back here right away. 
And within 24 or 48 hours, we could be back here to discuss in 
total the whole issue.
    So, I don't think that the President had the authority to 
go into Libya, and when I watched the remarks that he made 
today with the Prime Minister of England, it sounded like, to 
me, that he had made a decision that we were all in this 
together, we were committed to this war against Omar Ghadafi, 
and we would do what was necessary with American resources to 
make sure he was driven from power.
    The President, in my opinion, according to the War Powers 
Act and the Constitution, does not have that authority. And 
yet, he is saying on international television right now, at 
least I think everybody that was watching would interpret, that 
we are, along with France, and England, and our NATO allies 
involved in a conflict to destroy the Omar Ghadafi regime.
    So, I think that's just wrong, and I support your efforts. 
I really congratulate you, Representative Rooney and 
Representative Gibson, for working on this. It's extremely 
important, and anything I can do to help you in your endeavors 
to get this thing gone, I'll be glad to do. And with that, I'll 
yield back the balance of my time.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Burton. And 
to wrap up our hearing, Dr. Paul is recognized from Texas. 
Thank you.
    Mr. Paul. Thank you, Madam Chairman.
    First, I want to thank Mr. Connolly for his comments, and 
his questions, because I believe they were very pertinent, as 
well as Mr. Berman, because he had some concerns that I've had, 
as well, dealing with the obligations under treaty. And I do 
appreciate the fact that Mr. Gibson has come by my office to 
discuss these, and we've had our little debates on this, but I 
do want to follow-up with it, because I do have the concerns 
about this obligation.
    Actually, the way I understand, NATO, United Nations is 
that it still requires, it doesn't say that we automatically go 
to war, we have to live within our Constitution. We have to 
come and get the proper authority under NATO and the United 
Nations. Matter of fact, I do believe that it was the League of 
Nations that failed because it did not require congressional 
approval, and that's why the American Government didn't support 
it.
    But, nevertheless, I agree that there's a lot of 
ambiguities, and certainly today the legal opinion that I just 
read for the President, that we were obligated in order to 
maintain the credibility of the United Nations. So, they're 
using this as an authority.
    Ambiguities, I believe, are very strong here. But I am not 
sure that adding to the bill, and to the War Powers Resolution 
that we have obligations under treaties, since our treaties, 
though, are so carelessly interpreted. So, I don't want to get 
too much into this, because you've already talked about this a 
good bit. But let us say that your bill was the law of the 
land, what--how would the President have been obligated to act 
differently when it came to Libya?
    Mr. Gibson. Given that the stipulations, declaration of 
war, authorization of force, or national emergency by attack 
upon the United States, its possessions, their armed forces, or 
imminent threat of attack was not present, the President would 
have had to have come here and receive the assent from the 
American people by way of their representatives.
    Mr. Paul. But could you not have said that without your 
phrase ``obligations of treaty?'' That doesn't give you that 
information, right?
    Mr. Gibson. It's possible. The reason why I have put it in 
the bill is because I don't think that--I don't think this has 
been discussed enough in our discourse, that we have--the 
American people, we have made--we have given our word in seven 
different pacts between 1947 and 1960, even though there shall 
be a vote consistent with our constitutional procedures.
    Let's recognize how weighty that vote would be. We would 
be, essentially, voting whether or not we're going to stick by 
what we said we were going to do. So, I mean, I think you would 
agree that that would a difficult vote to vote no.
    Mr. Paul. Well, I have trouble with it, because I think 
there's going to be more ambiguities. You know, I stated 
earlier that I don't even like the War Powers Resolution, 
because I think it undermines the Constitution and 
congressional authority, and hasn't done well for us. But the 
one part of it that sort of--it was intended to protect the 
Congress. And the reason the Presidents all considered the War 
Powers Resolution unconstitutional, because they want more 
power. And that is the requirement to report back, so I 
actually am concerned about removing the fact that they are 
required to come back in.
    So, if we raise the ambiguity level by saying we can go to 
war under an interpretation of a treaty, then all of a sudden 
we don't have this extra protection, probably makes my case for 
why do we have this War Powers Resolution, but I'm not--I don't 
think that strengthens the congressional position by removing 
that requirement.
    Mr. Gibson. Well, let me clarify. Section 3 of the War 
Powers Act is retained. It's Sections 5, 6, and 7 that are 
deleted. In Section 3, the President reports within 48 hours 
given that he is in compliance. That is not being deleted. It's 
the reporting requirements subsequent to that, the 30, the 60, 
the 90 day reports that are considered really not relevant any 
more. It's Section 3 that's affirmed.
    So, let me just offer you one thing, sir, is that my sense 
is that you're more concerned with the treaties than you are, 
necessarily, about the bill. And that may be a fair point, and 
something that a new generation of leaders can discuss, but I 
just want to raise the level of consciousness, that the 
American people in their former leaders gave their consent to 
certain things that certainly would come before a vote. But, 
again, the difficulty in that vote, given the fact that the 
American people gave their word.
    Now, one last thing, sir, I wanted to say, is that just as 
it's important that we dialogue here, Democrats and 
Republicans, the American people coming together and having 
this conversation, this won't work unless we get the President 
to sign it. That's part of the reason why we're here today, is 
that we need to work with the President to make sure that he 
agrees to this. And you may say well, why would the President 
agree to this? I mean, this would limit his powers.
    The point is that given our current status today, it 
benefits no one. Here we are having this hearing because the 
administration, it's unclear whether or not they're on 
constitutional grounds.
    I would think that the President, whomever it is, would be 
interested in bringing clarity to the situation. And that's why 
I think it's important that we all work together, and we work 
with the administration to come to an agreement about where we 
should be on War Powers in relation to the founders' intent.
    Mr. Paul. Madam Chairman, my time has expired, but may I 
have one short question?
    Chairman Ros-Lehtinen. Without objection.
    Mr. Paul. Thank you. I would like to ask Mr. Rooney this 
question. I know you've deferred and didn't want to 
particularly discuss Mr. Gibson's bill. But since you've been a 
professor of Constitutional Law, I think it would be nice to 
have your opinion.
    That phrase that he wants to add into about obligations 
under treaties, would you care to make any comment about that?
    Mr. Rooney. Yes. Certainly, I think that there, obviously, 
is mention of that in the Constitution. And with regard to what 
you were asking before, one of the concerns that I have, 
certainly, with the way that the President--this President has 
moved forward, and some of the comments that have come out of 
the administration that deal with kind of like the new way that 
we're going to go to war in the future under the Obama 
doctrine, is if it's small, humanitarian, we have NATO, there's 
no need for Congress to get involved. And somehow, to go to 
your question, that trumps what our role is, that concerns me 
greatly.
    But, again, as I said before, those words have been used by 
prior administrations. This humanitarian idea was used by 
Clinton, so we're not in unchartered territory. And, possibly, 
new legislation that trumps the War Powers Resolution might 
bring clarity, but I think that what my resolution simply says 
is just let's act within accordance of the law.
    If the President took the time to follow the law when it 
came to notifying us within 48 hours, and obviously has some 
interest, as Representative Gibson said, in following the law, 
but it's where we go from there that we always sort of have the 
wheels come off. So, I would just say that if we don't continue 
to assert ourselves, of course, we have the power of the purse 
in the end. But I think that we shouldn't stop this fight just 
because we do or don't like the War Powers Resolution, and what 
it says therein.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Paul. I thank you, and I yield back.
    Chairman Ros-Lehtinen. Thank you, Dr. Paul. And Mr. Berman 
is chomping at the bit, just to make a little clerical 
clarification to Mr. Rooney's bill.
    MR. Berman. Yes. I want to make it--well, make it clear to 
Representative Rooney, my comment about hypocrisy was about us 
as an institution, and those of us who haven't introduced a 
sense of Congress resolution, little less a change in the law, 
or an amendment to cut off funding may be in the world of the 
hypocrisy meter of higher hypocrisy than those who have.
    But, secondly, just to come back to the point Mr. Paul was 
making. I'm still trying to understand the treaty issue, Mr. 
Gibson, in your bill. I mean, it's good to have a conversation, 
but is that the only purpose of that provision? If you still 
have to get the authorization, what are you saying about 
countries with whom we have treaties? And then just to take Mr. 
Connolly's question on Africa, what if it's a civil war in a 
country with whom we have a treaty?
    Mr. Gibson. I've reviewed in the process of this research, 
I've been through all seven defense agreements that we have, 
and there isn't one that meets that hypothetical. So, I guess 
that's the way I'd answer that response to you.
    What I will say is this. Let me answer your question first, 
and that is that I put it in there to raise the level of 
consciousness really to our body that we have given, we, the 
people, have given our word to this. Yes, the stipulation says 
we shall take a vote, but I guess what I'm trying to 
communicate----
    Mr. Berman. You're saying it's sort of, guys, weigh the 
fact that they are a treaty partner as you cast your vote.
    Mr. Gibson. Right. And I--what I'd also tell you, sir, is 
that if we don't think that that's still our position, then we 
have a responsibility to move to repeal the treaty. So, I think 
it's incumbent upon every generation of leaders to take a look 
at the responsibilities that we have attendant to our word 
going forward.
    Chairman Ros-Lehtinen. Thank you, Mr. Gibson. I'm generous, 
but not extravagant. And we will continue this discussion 
tomorrow on the War Powers Act, and we'll have another set of 
experts.
    And with that, the committee is adjourned. Thank you, 
ladies and gentlemen.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
